Case: l:16-cv-01128-MWM-SKB Doc #: 40 Filed: 07/01/20 Page: 1 of 1 PAGEID #: 1106

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION - CINCINNATI
Case No. l:16-cv-1128

MARY JILL ALLGEYER,

Judge Matthew W. McFarland

Plaintiff,
vs.
CITY OF CINCINNATI, et al.,
Defendants.

JUDGMENT IN A CIVIL CASE

X

Jury Verdict.

This action came before the Court for a trial by jury.
The issues have been tried and the jury has rendered
its verdict.

Decision by Court.

This action came to trial or hearing before the Court.
The issues have been tried or heard and a decision has
been rendered.

IT IS ORDERED AND ADJUDGED: That the Report and Recommendation is
ADOPTED in its entirety and that the Motion for Summary Judgment is GRANTED.
July 1, 2020.
Richard W. Nagel, Clerk of Court
By: /s/Kellie A. Fields
Deputy Clerk

Case: 20-3827

Document: 32-1

Filed: 06/28/2021

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Page: 1

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: June 28,2021

Ms. Mary Jill Allgeyer
1129 Timbervalley Court
Cincinnati, OH 45233
Re: Case No. 20-3827, Mary Allgeyer v. City of Cincinnati, OH
Originating Case No.: 1:16-cv-01128
Dear Ms. Allgeyer,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Julie Connor
Case Manager
Direct Dial No. 513-564-7033
cc: Ms. Lauren Ann Creditt Mai
Mr. William Christopher Hicks
Mr. Richard W. Nagel
Enclosure
Mandate to issue

(1 of 9)

Case: 20-3827

Document: 32-2

Filed: 06/28/2021

Page: 1

NOT RECOMMENDED FOR PUBLICATION
No. 20-3827
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

MARY JILL ALLGEYER,
Plaintiff-Appellant,
v.

CITY OF CINCINNATI, OH,
Defendant-Appellee,
and

HARRY BLACK; GEORGETTA KELLY,
Defendants.

)
)
)
)
)

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF
OHIO

)
)
)
)
)
)

ORDER

Before: SUHRHEESTRICH, WHITE, and BUSH, Circuit Judges.

Mary Allgeyer filed an employment-discrimination action against the City of Cincinnati
and two municipal officials. On the defendants’ motion for judgment on the pleadings, the district
court dismissed some claims, including the claims against the individual defendants, and granted
summary judgment on other claims in favor of the City of Cincinnati after construing the motion
as a motion for summary judgment. After the close of discovery, the court granted summary
judgment in favor of the City of Cincinnati on all remaining claims. This appeal followed. This
case has been referred to a panel of the court that, upon examination, unanimously agrees that oral
argument is not needed. See Fed. R. App. P. 34(a). We AFFIRM the district court’s judgment.

(2 of 9)

Case: 20-3827

Document: 32-2

Filed: 06/28/2021

Page: 2

No. 20-3827

-2Background
Allgeyer identifies herself as a Caucasian woman bom in 1951. She worked for the City
of Cincinnati from 1990 to 1993 and then from 2000 until her retirement in 2018. Specifically,
she began as a temporary employee in April 1990 for a few months until she became a Clerk Typist
2 in August. In 1991, she became a Clerk Typist 3 on an emergency basis, meaning that her status
and appointment would end when a permanent employee took over her position. Allgeyer’s
employment and status ended in July 1993, the same month that the Civil Service Commission
denied her application to be made a permanent employee. After completing a degree, Allgeyer
returned to municipal employment as a Clerk Typist 1 in the City Manager’s Office in 2000. She
received an automatic promotion to Clerk Typist 2 after completing one year of service. In 2002,
she transferred to the Police Chiefs Office. In 2004, Allgeyer became a Clerk Typist 3 in the
Department of Transportation and Engineering. In 2007, after qualifying for the position through
a civil service examination, Allgeyer was promoted to the position of Administrative Technician.
She remained in this position at the Department of Transportation and Engineering until her
retirement in 2018.
On December 6,2016, while still an active employee, Allgeyer filed, as a pro se litigant, a
motion to proceed in forma pauperis to bring a civil action against the City of Cincinnati, Harry
Black, and Georgetta Kelly. At the time of filing, Black was the City Manager of Cincinnati, and
Kelly was Director of Human Resources. The complaint attached to the motion alleged racial
discrimination in violation of Title VII of the Civil Rights Act of 1964,42U.S.C. §§ 2000e-2000e17, and age discrimination in violation of the Age Discrimination in Employment Act of 1967, 29
U.S.C. §§ 621-634 (ADEA). The complaint alleged discriminatory conduct through termination
of employment, denial of job promotions, and unequal terms and conditions of employment, and
complained of ongoing discriminatory conduct. The complaint also alleged that, since 2015,
Allgeyer had submitted forty applications for job promotions without getting a single interview.
The complaint sought relief in the form of seven years’ credit of seniority for vacation and
retirement benefits, three years of vacation benefits, and $300,000. The complaint asserted that

(3 of 9)

Case: 20-3827

Document: 32-2

Filed: 06/28/2021

Page: 3

No. 20-3827

-3Allgeyer filed a charge of discrimination with the City of Cincinnati’s Equal Employment
Opportunity Administrative Review Board on August 28,2015, and was issued a right-to-sue letter
on September 22, 2016.
Granting Allgeyer pauper status, the district court ordered that the defendants be served,
so that “they can clarify which Defendant(s) are Plaintiffs ‘employer’ in any answer or response,”
rather than attempting an initial screen under 28 U.S.C. § 1915(e).
The three defendants filed a motion for judgment on the pleadings, with Allgeyer
responding in opposition. A magistrate judge filed a report recommending that the motion be
largely construed as a motion for summary judgment because the parties included documents
beyond the initial pleadings and that summary judgment be granted in favor of the defendants on
all Title VII and ADEA claims related to “any discriminatory acts that occurred prior to November
27, 2015,” which is 300 days prior to September 22, 2016, the date she filed her EEOC charge.
The magistrate judge recommended against summary judgment on claims against the City of
Cincinnati related to five applications for job promotions submitted after that date. On claims that
could be adjudicated without treating the motion for judgment on the pleadings as a motion for
summary judgment, the magistrate judge recommended dismissal of all claims against Black and
Kelly because they did not meet the definition of an “employer” under Title VII and the ADEA.
Finally, the magistrate judge recommended dismissal of Allgeyer’s hostile-work-environment
claim because Allgeyer’s allegations did not state a “continuing violation.” Over Allgeyer’s
objections, the district court adopted the report and recommendation, granting summary judgment
with respect to all claims against the City of Cincinnati except for the failure-to-promote claims
alleging race and age discrimination based on events arising on or after November 27, 2015, and
dismissing all claims against Black and Kelly, as well as Allgeyer’s hostile-work-environment
claim.
The parties proceeded to discovery on the remaining claims. The City of Cincinnati then
filed a motion for summary judgment on those claims. Allgeyer opposed the motion. The
magistrate judge filed a report recommending that summary judgment be granted. Allgeyer filed

(4 of 9)

Case: 20-3827

Document: 32-2

Filed: 06/28/2021

Page: 4

No. 20-3827

-4an objection, as well as a motion for “Leave of Court for Plaintiff s Summary Judgment on
Pleadings Granting Relief.” Interpreting this motion as a motion for leave to file a motion for
summary judgment in Allgeyer’s favor, the City of Cincinnati filed a response in opposition. The
district court denied Allgeyer’s motion as untimely. Allgeyer filed a second objection to the
magistrate judge’s report, whereupon the district court adopted the report and recommendation
and granted summary judgment in favor of the City of Cincinnati, thus terminating the case.
Allgeyer filed a timely notice of appeal. Allgeyer, who retained counsel to file the appeal,
proceeded pro se after the withdrawal of counsel.
Discussion
The City of Cincinnati argues that Allgeyer has failed to brief any appellate issue
adequately and has therefore effectively abandoned her appeal. See Bouyer v. Simon, 22 F. App’x
611, 612 (6th Cir. 2001) (pointing out the requirements of Rule 28 of the Federal Rules of
Appellate Procedure and the need for briefs to include controlling or persuasive authority). To be
sure, there are limits to the obligation courts have to construe the pleadings and filings of pro se
litigants liberally. See Pilgrim v. Littlefield, 92 F.3d 413, 416 (6th Cir. 1996). We conclude that
Allgeyer’s brief tests those limits but does not exceed them. Allgeyer’s attempts to introduce new
evidence to substantiate her disagreements must be rejected because we cannot make factual
determinations for the first time on appeal. See Taft Broad. Co. v. United States, 929 F.2d 240,
244 (6th Cir. 1991). However, she does present three arguments adequately enough for this court
to review the district court record. First, Allgeyer takes issue with the City of Cincinnati’s
responses to her discovery requests. Second, she disputes the reciStion of facts adopted by the
district court to grant summary judgment in favor of the City of Cincinnati after the close of
discovery. Third, Allgeyer argues that any time-barred claims should be restored because of the
Lilly Ledbetter Fair Pay Act of 2009, Pub. L. 111-2, 123 Stat. 5. Allgeyer makes no construable
arguments with respect to the dismissed claims against Black and Kelly, so their dismissal will be
affirmed without discussion.

(5 of 9)

Case: 20-3827

Document: 32-2

Filed: 06/28/2021

Page: 5

No. 20-3827
-5First, Allgeyer argues that the City of Cincinnati did not cooperate with her on discovery,
stating that “Defendants’ response during Discovery was NULL hurting Plaintiffs case.
Defendants[] had false statements throughout.” Allgeyer’s argument here seems to relate to her
motion to compel discovery that the magistrate judge denied. Because Allgeyer failed to challenge
the magistrate judge’s ruling by appealing it to the district court, she has forfeited this argument
on appeal. Stemler v. City ofFlorence, 126 F.3d 856, 866 n.9 (6th Cir. 1997); see Fed. R. Civ. P.
72(a) (giving parties fourteen days to appeal orders made by the magistrate judge on nondispositive
matters to the district judge).
Second, Allgeyer argues that the factual record does not support the grant of summary
judgment in favor of the City of Cincinnati with respect to the failure-to-promote claims that
remained pending at the close of discovery.

Specifically, she argues that the Report and

Recommendation was “based on faulty deposition proven in Plaintiffs motion ‘Leave of Court[’]
with new evidence.” Allgeyer appears to elaborate on this argument with the corresponding
portion of her commentary on the district court record. It is clear enough that Allgeyer challenges
the report and recommendation’s portrayal of the factual record with her own set of factual claims.
We review de novo the district court’s grant of summary judgment. Ability Ctr. of Greater
Toledo v. City of Sandusky, 385 F.3d 901, 903 (6th Cir. 2004). Summary judgment is appropriate
if the movant can demonstrate that no genuine dispute of material fact exists and the movant is
entitled to judgment as a matter of law. Fed. R. Civ. P. 56(a). The movant bears the initial burden
of establishing an absence of evidence to support the nonmoving party’s case. Celotex Corp. v.
Catrett, All U.S. 317, 325 (1986). The district court must view the evidence in the light most
favorable to the non-moving party, who must present sufficient evidence such that a rational jury
might find in its favor. Anderson v. Liberty Lobby, Inc., All U.S. 242,255, 256-57 (1986); see
also Rorrer v. City of Stow, 743 F.3d 1025, 1038 (6th Cir. 2014).
In a case alleging employment discrimination, the plaintiff must first establish a prima facie
case of discrimination by a preponderance of evidence before the burden shifts to the employer to
rebut that prima facie case. McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802 (1973). The

(6 of 9)

Case: 20-3827

Document: 32-2

Filed: 06/28/2021

Page: 6

No. 20-3827
-6McDonnell Douglas framework applies to claims of both race-based and age-based discrimination
when the case relies on circumstantial evidence. Geiger v. Tower Auto., 579 F.3d 614, 622 (6th
Cir. 2009). To establish a prima facie case, the plaintiff must demonstrate that (1) the plaintiff was
a member of a protected class, (2) the plaintiff was qualified for the job, (3) the plaintiff suffered
an adverse employment decision, and (4) the plaintiff was replaced by a person outside the
protected class or treated differently from similarly situated non-protected employees. White v.
Baxter Healthcare Corp., 533 F.3d 381, 391 (6th Cir. 2008). Where the plaintiff is a member of
the racial majority—and therefore not a member of a protected class—and alleges discrimination,
then the first and fourth factors change, so that the plaintiff must demonstrate background
circumstances supporting the suspicion that the employer discriminates against the majority, and
the plaintiff must also demonstrate being treated differently from similarly situated employees of
a different race. Zambetti v. Cuyahoga Cmty. Coll., 314 F.3d 249,255 (6th Cir. 2002).
The district court granted summary judgment in favor of the City of Cincinnati on the basis
that Allgeyer did not make a prima facie case with respect to her Title VII and ADEA claims
because she could not satisfy the fourth factor. Upon review, this flaw still remains for Allgeyer.
The evidence presented to the district court does not demonstrate that Allgeyer was treated
differently from similarly situated employees; it does not identify anyone similarly situated to
Allgeyer at all. Allgeyer’s arguments on appeal focus only on bolstering her position that she
suffered adverse employment decisions through the actions of others.

However thoroughly

Allgeyer satisfies the third factor in making a prima facie case in support of her Title VII and
ADEA claims, her failure to address the fourth factor means that she cannot make a prima facie
case that survives a motion for summary judgment. Therefore, we affirm on this issue.
Third, Allgeyer argues that the time-barring of most of her claims against the City of
Cincinnati was improper in light of the Lilly Ledbetter Fair Pay Act. The district court dismissed
the hostile-work-environment claim and granted summary judgment in favor of the City of
Cincinnati for claims based on discriminatory acts committed before November 27, 2015.

(7 of 9)

Case: 20-3827

Document: 32-2

Filed: 06/28/2021

Page: 7

No. 20-3827

-7In Ohio, before a plaintiff can bring a Title VII or ADEA claim to court because of an
alleged discriminatory act, the plaintiff must file a charge of discrimination with the Equal
Employment Opportunity Commission (EEOC) or an equivalent state or local agency within 300
days of the alleged discriminatory act, then receive a right-to-sue letter from the EEOC or agency.
Thompson v. Fresh Prods., LLC, 985 F.3d 509, 520 (6th Cir. 2021). A hostile-work-environment
claim can incorporate discriminatory incidents taking place outside the 300-day period only if they
combine with incidents taking place within the period to constitute a single discriminatory act. See
Sharpe v. Cureton, 319 F.3d 259, 267 n.6 (6th Cir. 2003) (recognizing that this exception to the
300-day rule applies to both Title VII and ADEA claims). Allgeyer’s complaint is based on a
charge of discrimination she filed on September 22, 2016, the same day she was issued a right-tosue letter. November 27,2015, falls 300 days before that date, so any discriminatory acts that took
place before that date are time-barred.
The Lilly Ledbetter Fair Pay Act provides that a discriminatory act:
occurs, with respect to discrimination in compensation . . . when a discriminatory
compensation decision or other practice is adopted, when an individual becomes
subject to a discriminatory compensation decision or other practice, or when an
individual is affected by application of a discriminatory compensation decision or
other practice, including each time wages, benefits, or other compensation is paid,
resulting in whole or in part from such a decision or other practice.
42 U.S.C. § 2000e-5(e)(3)(A). Courts agree that what Congress meant by “a discriminatory
compensation decision or other practice” is the type of wage or compensation discrimination
involved in Ledbetter v. Goodyear Tire & Rubber Co., 550 U.S. 618 (2007), the Supreme Court
decision that was overruled by the Act; notably, failure-to-promote claims are outside the scope of
the Act. See Schuler v. PricewaterhouseCoopers, LLP, 595 F.3d 370, 375 (D.C. Cir. 2010);
Poullard v. McDonald, 829 F.3d 844, 853 (7th Cir. 2016). Allgeyer’s hostile-work-environment
claim is also outside the scope of the Act since hostile-work-environment claims are a type of
harassment claim. See Waldo v. Consumers Energy Co., 726 F.3d 802, 813 (6th Cir. 2013)
(establishing a prima facie case of a hostile-work-environment claim). Indeed, nothing in the

(8 of 9)

Case: 20-3827

Document: 32-2

Filed: 06/28/2021

Page: 8

No. 20-3827
-8record, including the copious exhibits submitted by Allgeyer, points to “a discriminatory
compensation decision” that makes the Act relevant to Allgeyer’s claims.
Having settled that the Lilly Ledbetter Fair Pay Act does not apply to this case, the district
court correctly determined that any claims based on discriminatory acts that occurred prior to
November 27, 2015, are time-barred.

With respect to the hostile-work-environment claim,

Allgeyer must provide enough factual allegations to show that (1) she was a member of a protected
class or there are background circumstances supporting the suspicion that the employer
discriminates against the majority, (2) she was subjected to unwelcome harassment, (3) the
harassment was based on her status, (4) the harassment was sufficiently severe or pervasive to alter
the conditions of employment and create an abusive working environment, and (5) the employer
knew or should have known about the harassment and failed to act. See id. The totality of
circumstances based on the allegations in Allgeyer’s complaint does not support a plausible claim
for a hostile work environment. Allgeyer makes no mention of her working environment in the
complaint, and it is not clear if she even alleges any harassment. The district court properly
dismissed the hostile-work-environment claim. Thus, we affirm on this issue as well.
Conclusion
Accordingly, we AFFIRM the judgment of the district court granting summary judgment
in favor of the City of Cincinnati.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(9 of 9)

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 1 of 26 PAGEID #: 936

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Case No. 1:16-cv-1128

MARY JILL ALLGEYER

Barrett, J.
Bowman, M.J.

Plaintiff,
v.
CITY OF CINCINNATI, et al.
Defendants.

REPORT AND RECOMMENDATION
Plaintiff, proceeding pro se and in forma pauperis, filed a complaint against the
City of Cincinnati and two individuals, Harry Black and Georgette Kelly. Pursuant to local
practice, this case has been referred to the undersigned magistrate judge. See generally
28 U.S.C. § 636(b). Following the close of discovery in this case, the Defendant City
moved for summary judgment. For the reasons that follow, the undersigned recommends
that the Defendant’s motion be GRANTED, and that this case be closed.
I.

Procedural Background

In a complaint filed on December 6, 2016, Plaintiff alleged that during her long
employment with the City, she was subjected both to reverse race discrimination in
violation of Title VII of the Civil Rights Act of 1964, and to age discrimination. The
complaint further alleged that she faced termination, was denied promotion, and
experienced unequal terms and conditions of her employment. She alleged a course of
continuing discrimination.

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 2 of 26 PAGEID #: 937

Defendants responded to Plaintiffs’ complaint with a motion seeking judgment on
the pleadings. In a Report and Recommendation adopted over Plaintiff’s objections as
the opinion of the Court, the Court granted in part and denied in part the Defendants’
motion, which the Court construed as a preliminary motion for summary judgment.1 In
granting the Defendants’ construed motion, the Court dismissed all claims as time-barred
except for certain “failure to promote” claims alleging “race and/or age discrimination for
the ... applications for promotion that Plaintiff submitted after November 27,2015." (Doc.
14 at 13; id. at 16).2 The Court also dismissed all claims against the two individual
Defendants. (Id. at 15-16). The Court subsequently amended its calendar order and
directed the parties to complete discovery by November 30, 2018, with any additional
dispositive motions to be filed on January 4, 2019. (Doc. 20).
The sole remaining Defendant, the City of Cincinnati, timely moved for summary
judgment on Plaintiff’s remaining failure to promote claims. (Doc. 23). Plaintiff filed a
response in opposition, (Doc. 27), to which Defendant filed a reply. (Doc. 28). Without
seeking leave of Court, Plaintiff filed a second memorandum in opposition to Defendant’s
motion for summary judgment.3 (Doc. 29). To the extent that any reviewing court would
find the construed sur-reply worthy of consideration, it does not alter the conclusion that
the City is entitled to judgment as a matter of law.

1 No discovery had been conducted in the case at the time, but the motion was construed under Rule 56
because both parties had attached documents outside the scope of the pleadings.
2 Although the first motion for judgment identified a total of five applications, (see Doc. 12-1 at 46-50),
Defendant’s current motion addresses additional applications identified during discovery in this case.
3 The undersigned recommends excluding consideration of Plaintiff's second memorandum in opposition
to Defendant’s motion as untimely and procedurally improper. In addition, some of the 34 pages of exhibits
attached to the memorandum are duplicates of those submitted with Plaintiffs first response. Consistent
with the earlier response, many exhibits pre-date the claims at issue.

2

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 3 of 26 PAG El D #: 938

II.

Standard of Review

In a motion for summary judgment, a court must view “the facts and any inferences
that can be drawn from those facts...in the light most favorable to the nonmoving
party." Keweenaw Bay Indian Comm.

v. Rising, 477 F.3d 881, 886 (6th Cir.

2007) (internal quotation marks and citation omitted). “Summary judgment is only
appropriate ‘if the pleadings, depositions, answers to interrogatories, and admissions on
file, together with the affidavits, if any, show that there is no genuine issue as to
any material fact and that the moving party is entitled to a judgment as a matter of law.”’
Id. (quoting Fed.R.Civ.P. 56(c)). "Weighing of the evidence or making credibility
determinations are prohibited at summary judgment - rather, all facts must be viewed in,
the light most favorable to the non-moving party.” Id.
The requirement that facts be construed in the light most favorable to the Plaintiff,
however, does not mean that the court must find a factual dispute where record evidence
contradicts Plaintiffs unsupported allegations.

If a moving party has carried its initial

burden of showing that no genuine issues of material fact remain in dispute, the burden
shifts to the non-moving party to present specific facts demonstrating a genuine issue for
trial. Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586-87 (1986).
“The ‘mere possibility’ of a factual dispute is not enough.” Mitchell v. Toledo Hosp., 964
F.2d 577, 582 (6th Cir. 1992) (citing Gregg v. Allen-Bradley Co., 801 F.2d 859, 863 (6th
Cir. 1986)). In order to defeat the motion for summary judgment, the non-moving party
must present probative evidence that supports its complaint. Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 249-50 (1986). Although reasonable inferences must be drawn in
favor of the opposing party, see Matsushita, 475 U.S. at 587, inferences are not to be

3

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 4 of 26 PAGEID #: 939

drawn out of thin air. To demonstrate a genuine issue, the opposing party “must do more
than simply show that there is some metaphysical doubt as to the material facts.... Where
the record taken as a whole could not lead a rational trier of fact to find for the non-moving
party, there is no ‘genuine issue for trial.’” Id., 475 U.S. at 586-587 (citation omitted).
To the extent that the Defendant has shown that Plaintiff lacks evidence on an
essential element of any of her claims, the burden shifts to Plaintiff to set forth “specific
facts showing that there is a genuine issue for trial.” Id., at 587. At this point, Plaintiff may
not rely solely on her subjective beliefs or opinions. Arendale v. City of Memphis, 519
F.3d 587, 601 (6th Cir. 2008). She may not show only that some hypothetical doubt exists
as to the facts. See Matsushita, 475 U.S. at 586. “The mere existence of a scintilla of
evidence in support of the plaintiffs position will be insufficient; there must be evidence
on which the jury could reasonably find for the plaintiff.” Copeland v. Machulis, 57 F.3d
476, 479 (6th Cir. 1995). Based on the relevant standards, the Defendant is entitled to
judgment as a matter of law on all claims.
III.

Undisputed Facts

Plaintiff is a Caucasian female born in 1951 who first worked for the City from 1990
until 1993. While the reasons for her 1993 departure are disputed, that dispute is not
material to the issues presented in this case. (See, e.g., Doc. 25-1, Plaintiffs Deposition
Ex. A, at 21). The parties agree that Plaintiff was later re-hired by the City and worked
from October 1,2000 until her retirement on August 1,2018. (Doc. 25, Depo. at 24, 39).
When she was rehired, Plaintiff began working in the City Manager’s Office as a
Clerk Typist I.

She was subsequently promoted to Clerk Typist II. In 2002, Plaintiff

transferred to work as a Clerk Typist II in the Police Chiefs Office. In 2004, she took a

4

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 5 of 26 PAGEID #: 940

civil service exam for promotion to a Clerk Typist III position, and was selected for that
position in the Department of Transportation and Engineering (“DOTE”). In 2007, Plaintiff
was promoted to the position of Administrative Technician (“Admin Tech”) after taking a
civil service exam and qualifying for an eligibility list. She continued to work as an Admin
Tech in DOTE until her retirement.
The Admin Tech position falls within an administrative class series of positions.
Most employees are promoted sequentially within the hierarchy of the administrative class
series, from Admin Tech to Admin Specialist, to Senior Admin Specialist, to Supervising
Management Analyst, with the top rung of the series being Division Manager. (Doc. 25 at
57). Between November 27, 2015 and her retirement, Plaintiff applied for at least 14, and
possibly as many as 24, promotional opportunities. (Doc. 25 at 45 and Doc. 25-2, Ex. B,
identifying 14 positions for which Plaintiff applied during the relevant time frame; see also
Doc. 25-3, Ex. C, identifying HR responses to 24 applications received after November

27, 2015).
Some of the positions for which Plaintiff applied were Admin Specialist positions,
which was one position higher in the administrative class series. However, other positions
sought by Plaintiff were several steps above her Admin Tech position.

Five or six

applications were rejected or failed based upon Plaintiff’s failure to meet minimum
qualifications/eligible classification. (Doc. 25-2, see also Doc. 25 at 167-68, testifying
$

about rejection listed on Doc. 25-3 for failure to meet time and grade and required
classification requirements).
Some (but not all) of the Admin Specialist positions for which Plaintiff applied were
positions that were filled from an eligibility list. The list was based upon an Admin

5

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 6 of 26 PAGEID #: 941

Specialist test for which Plaintiff initially submitted her application on September 10,2015,
prior to the limitations cut-off date established in this case. However, the administration
of the test was delayed until April 1,2016, a timeframe within the limitations period. (Doc.
25 at 55, 58). Plaintiff took the test, which included an oral interview. On June 16, 2016,
Plaintiff learned that she had placed only 46th out of 63 applicants who completed the
test. Plaintiff remained on the list until it expired in July 2017, but was never certified or
selected for an Admin Specialist position.
In addition to the applications that she submitted, Plaintiff asserts she “should have
been able to compete" for additional jobs in other departments that were filled by the Civil
Service Commission using promotion without exam, working out of class, and
appointments to classified service. (Doc. 25 at 184 and Doc. 25-4, Ex. D). However,
Plaintiff expressed interest in only one of those positions, a Senior Administrative
Specialist (P) position awarded to Lorryn Bruns in July 2016. (Doc. 25 at 184 and Doc.
25-5, Ex. E).
IV.

Analysis
A. Applicable Legal Standards

Title VII prohibits discrimination in employment “because of such individual’s race."
42 U.S.C. § 2000e-2(a)(1), while the Age Discrimination in Employment Act (“ADEA”)
prohibits discrimination “because of such individual’s age.” 29 U.S.C. § 623(a). At the
outset, the undersigned notes that Plaintiff does not claim, and expressly denied in
deposition testimony, that anyone in authority directly proclaimed or expressed racebased or age-based bias against her during her employment. (Doc. 3; see also Doc. 25
at 228). “Direct evidence of discrimination is evidence of conduct or statements by

6

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 7 of 26 PAGEID #: 942

persons involved in making the employment decision directly manifesting a discriminatory
attitude, of a sufficient quantum and gravity that would allow the factfinder to conclude
that attitude more likely than not was the but-for cause of the employment decision.” Scott
v. Potter, 182 Fed. Appx. 521, 525-26 (6th Cir. 2006) (internal quotation marks and
citations omitted). “[0]nly the most blatant remarks, whose intent could be nothing other
than to discriminate ... satisfy this criteria.” Id. at 536. Moreover, isolated or ambiguous
remarks generally are not sufficient to prove a “direct evidence” claim. Peters v. Lincoln
Elec. Co., 285 F.3d 456, 478 (6th Cir. 2002).
Since Plaintiff relies exclusively upon circumstantial evidence rather than on direct
evidence, her case is governed by the familiar McDonnell Douglas burden-shifting
framework that applies to most employment discrimination claims.

See McDonnell

Douglas v. Green, 411 U.S. 792, 802, 93 S. Ct. 1817 (1973). As the plaintiff, Ms. Allgeyer
has the burden of establishing a prima facie case of employment discrimination.
To establish a prima facie case of reverse-race discrimination under...
federal law, a plaintiff must prove the following elements:
1. Background circumstances to support the suspicion that the defendant
is that unusual employer who discriminates against the majority:
2. [She] was qualified for his job;
3. [She] suffered an adverse employment decision; and
4. [She] was treated differently than similarly situated employees of a
different race.
Fletcher v. U.S. Renal Care, Inc., 240 F.Supp.3d 740, 748 (S.D. Ohio, 2017) (citing
Nelson v. Ball Corp., 656 Fed. Appx. 131, 134-135 (6th Cir. 2016) (internal quotations
and citations omitted)).

The Sixth Circuit has held that the same burden-shifting

7

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 8 of 26 PAGEID #: 943

framework applies to Plaintiff’s claim of age-based discrimination. See Geiger v. Tower
Auto, 579 F.3d 614, 620 (6th Cir. 2009).
Only if Plaintiff establishes her prima facie case does the burden shift to the City
to articulate a legitimate, non-discriminatory reason for the employment action taken. If
the Defendant succeeds in articulating a legitimate non-discriminatory reason for the
failure to promote Plaintiff, then the burden shifts once more to Plaintiff to show that the
City’s proffered reasons for its failure to promote her were pretextual. See, e.g., Jackson
v. United Dairy Farmers, 554 F. Supp.2d 813, 815 (S.D. Ohio 2008) (explaining burdenshifting standard, internal citations omitted).
Defendant does not dispute that Plaintiff is within a protected age classification,
and is Caucasian. Defendant also does not dispute that Plaintiff suffered an adverse
employment action when she was not promoted to various positions to which she applied
and one additional position (filled by Lorryn Bruns) in which she had expressed interest
but was precluded from applying. (Doc. 23 at 8). However, the City persuasively argues
that it is entitled to judgment as a matter of law based upon Plaintiffs failure to prove other
elements of her prima facie case. Specifically, Plaintiff has failed to come forward with
evidence that any other “similarly situated” employees (outside of Plaintiffs protected
class) received promotions for which Plaintiff herself was qualified, and for which Plaintiff
had submitted applications or expressed interest.
B. Plaintiff’s Opposition to Summary Judgment
Plaintiff filed a 98-page response to the City’s motion, consisting of a 9-page
memorandum, and 89 pages of exhibits. In her memorandum, Plaintiff concedes that

8

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 9 of 26 PAGEID #: 944

she has no evidence that any similarly situated individuals outside of Plaintiffs
protected class received more favorable treatment.
[Counsel for Defendant] states that I (Plaintiff) “have no genuine issues of
material fact. When confronted with a record of her applications and asked
to review her own documentary evidence, Plaintiff was unable to provide
basic information about the positions for which she had applied including
the departments, job responsibilities, and minimum qualifications for the
position. More importantly, Plaintiff was unable to identify the similarly
situated individuals outside of her protected class who received more
favorable treatment.” fCounsell would be correct on all counts.
(Doc. 27 at 2, emphasis added). Plaintiff complains that she was unable to “decipher
who received promotions from my applications" because “I do not have a photographic
memory and I could not respond to his questions at the deposition in November." (Id.)
Plaintiff’s response demonstrates a fundamental misunderstanding of the burden
of proof required to prove her claims or to defeat summary judgment. As stated, under
McDonnell Douglas, Plaintiff has the burden to make a prima facie showing on the
essential elements of her claim. Plaintiffs concession that she cannot do so provides
grounds for granting Defendant’s motion. A closer review of Plaintiff’s arguments and of
the record in this case only adds to the conclusion that the Defendant is entitled to
judgment as a matter of law.
The 89 pages of exhibits appended to Plaintiffs response are largely
unauthenticated, poorly organized, and only briefly referenced (if at all) in her
memorandum in opposition. This Court is not required to search the entire record to look
for specific material facts that could support Plaintiffs claim.

Guarino v. Brookfield

Twnshp. Trs., 980 F.2d 399,404 (6th Cir. 1992). Instead, it is Plaintiffs burden to “present
affirmative evidence to defeat a properly supported motion for summary judgment.”
Street v. J.C. Bradford & Co., 886 F.2d 1472,1479 (6th Cir. 1989). While not required to
9

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 10 of 26 PAGEID #: 945

do so in light of Plaintiff’s failure to provide specific references, the undersigned has
endeavored to review all exhibits in order to confirm the absence of any genuine issue of
material fact that would preclude judgment from being granted to the Defendant City in
this case.
Many of the exhibits contain improper annotations and/or argument. (See Doc. 27
at 8, “I have marked most of my exhibits with yellow [highlighter] and included
statements."). Roughly half of the exhibits are comprised of copies of what appear to be
undated civil service rules or policies,4 or documents that predate the claims at issue.5
Plaintiff argues that all of her exhibits reflect decades-long discrimination against her.
However, this Court has dismissed all claims and defendants other than claims
concerning applications for promotion submitted after November 27, 2015.

In the

absence of any showing of relevance to the limited claims at issue, the undersigned
declines to consider exhibits that appear relevant only to previously dismissed claims.
After discovery closed, Plaintiff states that she contacted “Central H.R.” and
obtained additional records through a public information request. Although Plaintiff offers
no citation to any record, she asserts that records show a total of 46 employees were
placed in the position of Admin Specialist between the years of 2015 and 2018.6

4 See, e.g., Doc. 25 at 229, describing exhibit described as an Institutional Racism Ordinance” enacted by
the City, which Plaintiff testified was “just for minorities” and said “nothing anywhere about white female
women.” See also Doc. 25-1 at 26-28, undated “Motion” to eliminate institutional racism signed by six City
Council members.
5 Much of Plaintiffs response similarly focuses on complaints about applications for promotion or other
events prior to November 27, 2015. (See, e.g., Doc. 27 at 4, citing Ex. B-2 and copies of a 2004 grievance
and subsequent reclassification and promotion of another employee in 2006 as an alleged example of
discrimination).
6 As Defendant points out, this assertion is one of many assertions or new allegations made by Plaintiff in
her response in opposition to Defendant's motion without record support. (See Doc. 28 at 3-4).

10

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 11 of 26 PAGEID #: 946

Plaintiffs reliance on 46 potential promotional opportunities is misplaced. Based
upon the defined limitations period, only applications submitted after November 27, 2015
are relevant. Positions for which Plaintiff submitted no application and expressed no
interest are irrelevant.7 Finally, despite some ambiguity in Plaintiffs own records as to
whether she submitted 14 or 24 applications, she claimed (at most) to have submitted 24
applications during the relevant time period. That number is calculated by reference to a
list that Plaintiff compiled of responses allegedly received from HR to various applications.
(See Doc. 25-3, Ex. C). Only 24 of the responses post-date November 27, 2015.8
Plaintiffs response in opposition to the pending motion emphasizes longstanding
disputes with her employer and her sense of being unfairly treated. She repeatedly
stresses that she obtained her bachelor's degree and complains of “new HR policies” that
eliminated a degree requirement for many positions. (See Doc. 27 at 11, concerning
applicant data for job postings: Doc. 27 at 5, arguing that her “degree, years of excellent
performance reviews, [and] experience...should have paved the way” for promotion; see
also id., referring to “15 years of student loans and going to college every night and on
weekends for ...five years while working full time”). Plaintiff asserts that she persevered
to obtain an on-line bachelor’s degree in 2010 from the University of Phoenix in
Business/Public Administration. (See Doc. 27 at 25). She complains that others were
promoted while she remained “blocked" despite that degree. (Doc. 27 at 2).

7 Plaintiff produced to Defendant a list of agenda items that she represented were printouts reflecting
promotions of eight individuals. (Doc. 25 at 211-212, Doc. 25-4). However, Plaintiff was unable to identify
any of the positions as positions for which she applied, but was rejected based on age or race, and/or in
which a candidate of a different race and/or younger age was treated more favorably because of their age
or race. {Id. at 213-224).
8 Although this Court previously defined the limitations period by reference to the date when Plaintiff
submitted her applications, the exhibit does not include Plaintiffs application date.

11

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 12 of 26 PAGEID #: 947

On the whole, Plaintiff’s response evinces sincere beliefs that she has been
subjected to years of race and age-related discrimination and unfairly treated due in part
to evolving H.R. practices and policies. However, Plaintiff’s subjective beliefs as to the
reasons for her non-promotion are insufficient to overcome the Defendant’s otherwise
unrefuted evidence in favor of summary judgment. Notably, Plaintiff cannot identify the
age or race of the successful applicants for the vast majority of the promotions she sought.
Even if Plaintiff had come forward with the race and/or age of the candidates who
were ultimately selected for promotions over her, the fact that a younger candidate or a
person of a different race may have been selected is not sufficient absent a showing that
Plaintiff herself was similarly situated to the successful candidate. See Upshaw v. Ford
Motor Co., 576 F.3d 576, 585 (6th Cir. 2009) (to establish a prima facie case, plaintiff
must prove not only that she is a member of a protected class and that she was qualified,
but also that she was considered for and denied the promotion and that “other employees
of similar qualification who were not members of the protected class received
promotions”). “|T]he plaintiff must produce evidence that the relevant other employees
are 'similarly situated in all respects.’” Hollins v. Atlantic Co., Inc., 188 F.3d 652, 659 (6th
Cir. 1999) (quoting Mitchell, 964 F.2d at 583). A plaintiff’s failure to point to evidence
concerning the similarities in position, responsibilities, job function, or level of
performance, and reliance on her own conclusory statements about differential treatment.
is insufficient to defeat summary judgment on this element. Hykes v. Geithner, 2014 WL
4656373 at *6 (W.D. Tenn. Sept. 15, 2014); accord Darby v. U.S. Dept of Energy, 2006
WL 7348136 at *6 (6th Cir. 2006) (African-American plaintiff failed to show that white
employees who were allegedly given numerous promotions were similarly-situated).

12

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 13 of 26 PAGEID #: 948

Pointing to alleged “discrimination” dating to the early 1990’s, which claims this
Court previously dismissed, Plaintiff expresses her belief that “it is probable in retrospect
that racial discrimination began long ago with the H.R. Director, who was African
American.” (Doc. 27 at 3). She speculates: “Nothing else makes sense.” {Id.) However,
speculation and conjecture are insufficient as a matter of law to prove Plaintiffs case. As
this Court recently explained in another case:
Plaintiff cannot prove that she was the most qualified applicant merely “by
relying on her subjective evaluation and comparison of her qualifications” to
the selected applicant. See Hedrick v. Western Reserve Case Sys., 355
F.3d 444,462 (6th Cir. 2004) (Plaintiffs “subjective view of her qualifications
in relation to those of other applicants, without more, cannot sustain a claim
of discrimination.”); see also Sudduth v. Geithner, 2012 WL 1132748 at *3
(S.D. Ohio April 4, 2012) (granting summary judgment on race
discrimination claim) (additional citations omitted).
Newbill v. Secretary, Department of Treasury, 2018 WL 5251847, at *6 (Oct. 22, 2018),
adopted at 2018 WL 5982929 (S. D. Ohio Nov. 13, 2018).
Finally, much of Plaintiffs response focuses on perceived inequities in evolving
HR policies that she fails to connect to her claims, despite inexplicably asserting illegal
discrimination arose from those new policies. For example, she argues that City antidiscrimination policies and practices have led the City “to omit best practices used in
successful private businesses which has left City employees vulnerable to discrimination.”
(Doc. 27 at 6).

She asserts (without citation to evidence) that “I have experienced

repeated discriminating treatment due to the impact from seemingly neutral implemented
policies and practices that have had a disproportionately negative impact on my career,
both financially and emotionally and continue to experienced discrimination with every
paycheck I receive." (Doc. 27 at 6). She complains that many were hired or promoted
from “outside” of the civil service system and through “unclassified or exceptional

13

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 14 of 26 PAGEID #: 949

appointments with new classification requirements,” and that many promoted employees
lacked college degrees. (Doc. 27 at 2; see also id. at 7, arguing that “Administrative
Promotions are going to civil servants through unclassified means, exceptional
appointments, working out of class and new hires [leading] to HR discrimination of me as
a Civil Servant to promotional opportunity. My race and age became a detriment in the
culture of the City organization and an easy target."). As “proof that the policies were
discriminatory, Plaintiff relies heavily on the fact that Human Resources has access to
data that reveals identifying characteristics including gender, ethnicity and age. (Doc. 27
at 7). “[LJisting my age and ethnicity with application information in the City’s HR
Department shows a platform of discrimination." (Doc. 27 at 8).

However, Plaintiff

concedes that there are "many reasons that the City has to keep statistics on gender and
race.” (Doc. 25 at 49-50).
C. Review of Specific Promotions for Which Plaintiff Applied
1. Positions for Which
Qualifications

Plaintiff

Did

Not

Meet

Minimum

Of the positions for which Plaintiff actually applied during the relevant period, at
least five applications were rejected or failed based upon a failure to meet minimum
qualifications/eligible classification. (Doc. 25-2, Ex. B). A sixth application appears to
have been rejected because the job posting was canceled and not filled by anyone. (Doc.

25 at 162).
Plaintiff admits that many of the rejections were based on non-discriminatory
factors, such as a rejection of a transfer because Plaintiffs “current classification is less
than that of transfer classification.” (Doc. 25 at 159-160). Other than referencing preNovember 2015 disputes about her classification status, Plaintiff offers no evidence to

14

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 15 of 26 PAGEID #: 950

refute the City’s denial of various applications based on a failure to meet minimum
qualifications. Thus, she has failed to produce relevant evidence that the rejection of five
applications was in anyway based on her race or age: (1) March 14, 2018 (Senior Admin.
Specialist (noncompetitive)); (2) May 24, 2016 (Supervising Management Analyst
(Procurement)); (3) May 16, 2016 (MA-Budget/Management Analyst (non-competitive));
(4) May 16, 2016 (Internal Auditor (non-competitive)); and (5) December 29, 2015 (Admin
Specialist (transfer)). (See, e.g., Doc. 25-2; Doc. 25 at 102-103,106-108, testifying that
rejection of “transfer” application for Admin Specialist position was based on fact that
Plaintiff was not classified as an Admin Specialist and therefore ineligible for “transfer,”
and that she does not have evidence that race or gender played any role). Plaintiff has
also failed to prove any claim exists for a sixth application rejected based upon the
cancelation of the job posting.
Plaintiff testified that a classification rule applied to eliminate her applications was
not applied in the same fashion to Brandi Sanders, on one occasion. However, because
Ms. Sanders applied for an entirely different position and Plaintiff admittedly did not know
her qualifications, (Doc. 25 at 161-162), Plaintiff has failed to prove that Ms. Sanders was
“similarly situated.”
2. Failure to Identify Similarly Situated Individuals for Other
Applications
. General Failure to Identify Winning Candidates
As Defendant points out, Plaintiff cannot establish her prima facie case because
she identifies no similarly situated individuals outside of her protected class who were
awarded positions for which Plaintiff herself was qualified. For example, on December
10 and again on December 28,2015, Plaintiff submitted applications for Admin Specialist,
15

i

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 16 of 26 PAGEID #: 951

communicator. The disposition of both applications referred to “minimum qualifications.”
Plaintiff did not obtain either promotion, but has no evidence that race or age played a
role. (Doc. 25 at 94-96, 98, 101). On April 11, 2016, Plaintiff applied for another Admin
Specialist position for which her application was “referred” with other qualified applicants.
Although she did not obtain the position, she again testified she had no evidence that
illegal discrimination played a role other than her belief that HR considers accessible data
concerning the race and age of applicants. At the same time, she did not know who was
awarded the position, and has no information concerning the successful applicant's race
or age. (Doc. 25 at 110).
When asked specifically whether she could point to any similarly situated
employee who was treated more favorably because of age or race, Plaintiff consistently
was unable to point to any evidence that would suggest bias. (Doc. 25 at 179-181, failing
to identify anyone in the position of supervising management analyst who was treated
more favorably because of their age or race), id. at 182 (Plaintiffs admission that she
applied for only one supervising management analyst position during the relevant time
frame, which she believed was awarded to a Caucasian female). For the vast majority of
all positions to which she applied, Plaintiff testified that she did not know who was
awarded the positions and has no evidence other than her subjective belief or
speculation. (Doc. 25 at 112, 113, 118, 120-121, 123-124, 127-128, 140-142, 144, 148).
During her deposition, Plaintiff would repeatedly assert that “I think they looked at my age,
yes,” but could offer no evidence but for her own failure to obtain the promotion. {Id. at
232, “I never heard from them. So I assume that they — I was not in the competition.
They weren’t going to consider me.") (emphasis added).

16

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 17 of 26 PAGEID #: 952

Under McDonnell Douglas,

Plaintiff was required to show background

circumstances that suggest the City is that unusual employer that discriminates against
the majority (Caucasian) race for her reverse discrimination claim. In addition, for both
the reverse-race discrimination and age discrimination claims, Plaintiff was required show
that a similarly situated employee was treated more favorably. In the absence of any
indication about who was selected for the positions for which Plaintiff applied, Plaintiff’s
hypothesis that similarly situated employees were treated more favorably based on
impermissible considerations of race and age is insufficient to prove her case.
ii. Identified Candidates Not Similarly Situated
Reviewing Plaintiffs memorandum in opposition to judgment, her exhibits and
deposition testimony, the undersigned finds only two positions (other than the position
that Ms. Bruns was awarded) for which Plaintiff offered any testimony about the candidate
who was selected over Plaintiff. In support of her ADEA claims, Plaintiff alleged that both
positions were filled by younger Caucasian candidates. However, the record fails to yield
any genuine issue of fact as to whether the selected candidate was similarly situated,
and/or selected over Plaintiff based upon discriminatory animus toward Plaintiffs age.
For example, Plaintiff testified about a supervising management analyst position
for which she applied on December 6, 2017 and for which her application was referred.
(Doc. 25 at 129-130). Plaintiff admitted that the position of supervising management
analyst and some other positions for which she applied would have amounted to a “fairly
substantial promotion,” several steps above her classification, and that such large
promotional jumps do not “normally” happen despite being theoretically possible. (Doc.
25 at 125, 127). She initially testified that the position in the Police Department was

17

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 18 of 26 PAGEID #: 953

awarded to Diane Bookwaiter, identified as “[w]hite, older. Not as old as me. Ten years
younger than me.”

(Id. at 130).9

However, she later clarified that it was not Ms.

Bookwaiter after all but instead was Bruce Ross, a younger white male who was a senior
human resource manager at the time, who received the promotion. (Id. at 114,132,135136). Other than the fact that Mr. Ross was born in 1982, Plaintiff has no evidence that
age played a role in her non-selection. (Doc. 25 at 136). The position held by Mr. Ross
prior to promotion was higher than Plaintiffs position, but she did not otherwise know Mr.
Ross’s education, background or qualifications, (id. at 138). Plaintiffs testimony that she
“could have fit well” in the position had she been selected, (Doc. 25 at 139), fails to prove
that Mr. Ross was similarly situated.
A second position for which Plaintiff identified a successful candidate was listed as
Admin Specialist for which “SME [subject matter expert] review” was required. Plaintiff
could not recall if the job required skills in data analytics, and agreed that race played no
role in the selection of the winning candidate, Leigh Tami. She again asserted that age
played a role based on her perception that Ms. Tami is younger. Again however, Plaintiff
had no knowledge of Ms. Tami’s qualifications and did not dispute defense counsel’s
representation that she possesses a law degree. (Doc. 25 at 140-142).10 In other words,
like the position awarded to Mr. Ross, Plaintiff offered nothing but her own speculation
that she was similarly situated to Ms. Tami, or that age played any role in Plaintiffs non­
selection.

9 Based on Plaintiffs age at the time, Ms. Bookwaiter would have been 56 years old, which is within the
same protected age classification as Plaintiff herself under the ADEA.
10 Plaintiffs testimony as to whether Ms. Tami was awarded that promotion or some other position was
equivocal. (See Doc. 25 at 143).

18

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 19 of 26 PAGEID #: 954

iii. Lorryn Bruns Not Similarly Situated
In addition to the applications actually submitted by Plaintiff, she bases one “failure
to promote" claim based upon the City’s refusal to permit her to apply for the position of
Senior Admin Specialist in her department, DOTE. It is undisputed that Lorryn Bruns
received a temporary promotion to that position in July 2016 and was permanently
promoted to the position on February 26, 2017. (Id. at 224, citing Doc. 25-4). Plaintiff
also complains that after Ms. Bruns was promoted, her prior position of Administrative
Specialist was left unfilled rather than posted so that eligible employees, such as Plaintiff,
could apply. (Tr. 27 at 6; see also Doc. 25 at 207). However, a failure to post a vacant
position does not indicate race and age discrimination against Plaintiff.
Plaintiff testified that Ms. Bruns is a Caucasian woman "15 years” younger than
Plaintiff.11 (Doc. 25 at 187). When Ms. Bruns first was given the temporary promotion to
Senior Admin Specialist, Plaintiff complained that the temporary assignment should be
rotated among other department employees.12 Her supervisor, Nick Sunyak, responded
favorably in part by agreeing that the Senior Admin Specialist position should be
temporarily rotated among interested employees who were already classified as Admin
Specialists, including Ms. Bruns. (Doc. 25 at 199, Doc. 25-1 at 23, expressing intent to
“first offer the rotation to Administrative Specialists” after determining interest, and then
providing existing Admin Specialists with “necessary training prior to their rotation period”;

11 Plaintiff was 65 years old in July 2016, which according to Plaintiffs testimony would have made Ms.
Bruns age 50 at the time of promotion. The undersigned assumes for the purpose of the pending motion
that the age difference is sufficient to state a claim under the ADEA; the City does not argue otherwise.
12 Plaintiff testified that an Admin Specialist identified as an African-American female named Kimberly
Jackson also was unaware of the temporary opening until informed by Plaintiff. (Doc. 25 at 186-187).
Plaintiff asserts that Ms. Jackson also was never placed into the rotation for temporary promotion, because
that rotation never occurred. Instead, after staying in the temporary placement for 7 months, Ms. Bruns
was awarded the permanent position. (Id. at 201, 225-226). Considering Ms. Jackson’s race and Ms.
Bruns’ race, this testimony undermines rather than supports Plaintiffs claim of reverse race discrimination.

19

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 20 of 26 PAGEID #: 955

see also Doc. 25-1 at 23). In an email response on which Michael Moore and Don
Gindling were copied, Mr. Sunyak explained that Plaintiff would not be included in the
rotation based on her lower classification, based on the “consensus" of DOTE “that
Administrative Technicians [are] not eligible for the temporary transfer.

This is a

temporary promotion of 2 grades.” (Id.) Mr. Sunyak further explained that in addition to
the group of eligible Admin Specialists who might rotate through the temporary position,
there were nine Admin Techs, which “would add years to the rotation, would also entail
extensive training on the various human resource systems, interfere with current
operations, and interrupt current duties." (Id.)
After learning that she would not be considered for the rotation based on her lower
classification, Plaintiff expressed her long-standing frustration with her promotional
opportunities and her belief that her superior qualifications had not been fairly considered
via email:
I just spoke with Don and he relayed to me your comment about me not
being qualified for the position of a Senior Admin. Specialist for the rotation.
I am not the least bit surprised by your vindictive response as this is how
you have always treated me for the last 14 years. As you know, I was on
the supervising management analyst eligible list a couple of years ago
(Dianne Bookwalter received the promotion in CPD), which is above a
senior admin, specialist. ... I’ve had more responsibility in CPD and City
Manager’s office than the other admin. Specialists who are deemed eligible
and I have two degrees with one in public administration. There is no longer
an eligibility list for the senior admin, specialist. I am eligible and required
to be included in the rotation.
(Doc 25-5 at 2). Denying Plaintiffs accusation that the decision not to include her in the
rotation was "vindictive,” Mr. Sunyak’s response reiterated that the decision “was made
for efficiency in operations.” (Doc. 25-1 at 23)

20

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 21 of 26 PAGEID #: 956

Plaintiff concedes that Ms. Bruns and other Admin Specialists held positions one
step below the Senior Admin Specialist promotion, and that the Admin Tech position held
by Plaintiff is two steps lower. (Doc. 25 at 188). Ms. Bruns had worked as an Admin
Specialist since 2007 prior to being promoted. Plaintiff further admits that the position of
Senior Admin Specialist requires “two years of experience at administrative specialist or
higher” - a qualification that Plaintiff did not possess "officially,” notwithstanding her belief
that she had performed equivalent work. (Doc. 25 at 190-191).

Nevertheless, Plaintiff

complains that Ms. Bruns did not have a bachelor’s degree. She testified to her belief
that the City chose Ms. Bruns based on her younger age. (Id. at 191). When asked for
evidence, Plaintiff responded, “[y]ou would have to ask them,” and could offer only "that’s
what I would get from it.” (Id.) The only other explanation Plaintiff offered was that Mr.
Sunyak, bore a personal “grudge” against her based upon a decade-earlier dispute over
her classification, which dispute Plaintiff attributed to racial bias.13 (Id. at 192; see also
id. at 191 “Nick did not want me to get the job because we had other things. I had other
problems with him.”). However, Plaintiff testified she was unsure whether it was Michael
Moore rather than Mr. Sunyak who promoted Ms. Bruns. (Id. at 194). Plaintiff had no
issues with Mr. Moore, but believed “he was a friend of Lorryn [Bruns].” (Id. at 194).
Based on the record presented, the City is entitled to judgment because Plaintiff
has failed to prove that Ms. Bruns was similarly situated in all respects. Unlike Plaintiff,
Ms. Bruns had been working as an Admin Specialist for years, and thereafter gained

13 Plaintiff does not explain how Mr. Sunyak’s alleged racial bias a decade earlier would relate to agerelated discrimination in the selection of Ms. Bruns in 2016. During the 2006 dispute, Plaintiff alleges that
Mr. Sunyak provided false information regarding her duties, leading to an incorrect classification. Other
than that dispute, the undersigned finds no need to recount other complaints or disputes that arose during
Plaintiffs employment because they do not appear pertinent to the scope and time frame of the issues
presented in this case. (But c.f. 23 at 3-4).

21

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 22 of 26 PAGEID #: 957

seven months of experience as a temporary Senior Admin. Specialist prior to her
permanent selection for that position. As discussed below, even if a reviewing court were
to find that Plaintiff has submitted sufficient evidence to prove her prima facie case
(contrary to the conclusion of the undersigned), the undersigned alternatively would
recommend that judgment be granted in favor of the City based upon Plaintiffs failure to
show that the Defendant’s articulated reasons for its decision were pretextual.
D. Alleged Bias in Promotional Test and 2016-2017 Eligibility List
An undefined number of the applications that Plaintiff submitted for the position of
Admin Specialist between June 2016 and July 2017 were rejected based upon Plaintiffs
position on an eligibility list of qualified applicants. Plaintiff placed 46th out of 63 eligible
candidates on that list due to her poor test performance. Plaintiff testified that, other than
employees within the same department in which the Admin Specialist opening occurs
only the top three on the list are typically “certified" for promotion. (Doc. 25 at 77-78; see
also id at 177, agreeing she was not certified based on her poor placement among those
who took the test).
Plaintiff believes that the inclusion of an oral interview on the test was unfair, and
did not recall an interview being used prior to 2016. (Doc. 25 at 69-70). Despite being
“great at interviews,” Plaintiff admitted that she “almost failed” the referenced interview,
contributing to her poor placement. (Doc. 25 at 59-60,166). Plaintiff testified to her belief
that “HR included that oral interview to have more control over who gets promoted,” as a
pretext for discrimination. (Doc. 25 at 82; see also id. at 88 “I think they did that oral
interview to control the outcome of the eligibility list.”). In Plaintiffs opinion, the oral
interview was “unnecessary" and should not have been permitted under a civil service

22

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 23 of 26 PAGEID #: 958

rule that provides for the inclusion of a structured oral interview “under the supervision of
the civil service staff in examinations where a written test is... insufficient.” (Doc. 25 at
69-70).

However, Plaintiff has no knowledge or evidence that the Civil Service

Commission did not approve the use of the structured oral interview in accordance with
applicable civil service rules. (Doc. 25 at 74-75).

In short, Plaintiff offers no evidence to

support her subjective belief that the oral interview was added as a pretext for
discrimination.
Notably, the record fails to support an inference of discrimination. Plaintiff testified
that multiple 3-person interview panels were employed at six different locations over a
two or three day period, and that all panels asked approximately 75 applicants the exact
same five questions. (Doc. 25 at 84,165-166). Plaintiff believed her own interview panel
may have been biased based upon its compositional makeup of one “older” Caucasian
female and two “young black girls." (Doc. 25 at 60). She further testified to her subjective
belief that “interpretation, and looks, an older white woman - I think that played a hand in
how they responded to my answers.” (Doc. 25 at 86-87). However, she conceded that
the panel did not use racial slurs or make any other comments to suggest bias during the
brief five-question interview. Instead, without articulating any basis for her belief, Plaintiff
testified that their “attitude” was biased. (Doc. 25 at 166).
Plaintiff also testified that a lack of transparency in grading made it impossible for
her to rule out bias. (Id. at 167). However, it is Plaintiff’s burden to produce evidence of
bias; the Defendant is not required to disprove a legal theory for which Plaintiff has
produced no evidence. Ironically, Plaintiff also explicitly denied that those scoring the test
gave applicants lower scores based on age or race.

23

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 24 of 26 PAGEID #: 959

Q: But as far as that, as far as your age and your race, how did those come into
play?
A. For this test, none.
(Doc. 25 at 92; see also id. at 87).
E. Lack of Showing of Pretext
On the record presented, there is no need to consider pretext because Plaintiff has
failed to prove her prima facie case. However, to the extent that any reviewing court
would find that Plaintiff has made out a prima facie case of race discrimination, the
undersigned finds undisputed evidence of legitimate, non-discriminatory reasons for the
alleged failure to promote, and no evidence of pretext.
Under McDonnell Douglas, if an employer puts forth evidence of a legitimate
nondiscriminatory reason for its action, the plaintiff must show that the reasons given were
not the true reasons, but were instead a pretext for discrimination. The “ultimate burden
of proving ... the intent to discriminate” remains with the plaintiff at all times. Wright v.
Murray Guard, Inc., 455 F.3d 702, 707 (6th Cir.2006) (citing St. Mary’s Honor Ctr. v.
Hicks, 509 U.S. 502, 511, 113 S.Ct. 2742 (1993)). “A plaintiff can refute the legitimate,
nondiscriminatory reason that an employer offers to justify an adverse employment action
‘by showing that the proffered reason (1) has no basis in fact, (2) did not actually motivate
the defendant's challenged conduct, or (3) was insufficient to warrant the challenged
conduct.’” Wexler v.

White's Fine Furniture, 317

F.3d

564,

576-577 (6th Cir.

2003) (additional citation omitted). Plaintiff’s disagreement with her employer’s policies
and decisions does not mean that Defendant’s reasons lacked a basis in fact. See, e.g.,

24

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 25 of 26 PAGEID #: 960

Wright v. Murray Guard, Inc., 455 F.3d at 709 (affirming the district court’s dismissal of a
race discrimination claim).
V.

Conclusion and Recommendation

Accordingly, for the reasons stated, IT IS RECOMMENDED THAT Defendant’s
motion for summary judgment be GRANTED as to all remaining claims, and that this case
be closed.
s/ Stephanie K. Bowman
Stephanie K. Bowman
United States Magistrate Judge

25

Case: l:16-cv-01128-MWM-SKB Doc #: 30 Filed: 04/01/19 Page: 26 of 26 PAGEID #: 961

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION

Case No. 1:16-cv-1128

MARY JILL ALLGEYER

Barrett, J.
Bowman, M.J.

Plaintiff,

v.
CITY OF CINCINNATI, etal.,
Defendants.

A

NOTICE

Pursuant to Fed. R. Civ. P 72(b), any party may serve and file specific, written
objections to this Report and Recommendation (“R&R") within FOURTEEN (14) DAYS of
the filing date of this R&R. That period may be extended further by the Court on timely
motion by either side for an extension of time. All objections shall specify the portion(s) of
the R&R objected to, and shall be accompanied by a memorandum of law in support of
the objections. A party shall respond to an opponent’s objections within FOURTEEN (14)
DAYS after being served with a copy of those objections. Failure to make objections in
accordance with this procedure may forfeit rights on appeal. See Thomas v. Arn, 474 U.S.
140 (1985); United States v. Walters, 638 F.2d 947 (6th Cir. 1981).

26

Case: l:16-cv-01128-MWM-SKB Doc #: 39 Filed: 07/01/20 Page: 1 of 2 PAGEID #: 1104

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION - CINCINNATI
MARY JILL ALLGEYER,
Plaintiff,

Case No. l:16-cv-1128
Judge Matthew W. McFarland
Magistrate Judge Stephanie K. Bowman

v.
CITY OF CINCINNATI, et al.,
Defendants.

ORDER OVERRULING OBJECTIONS (Docs. 31,38), ADOPTING REPORT AND
RECOMMENDATION (Doc. 30), GRANTING MOTION FOR SUMMARY
JUDGMENT (Doc. 23), AND TERMINATING CASE
This action is before the Court on Magistrate Judge Stephanie K. Bowman's
Report and Recommendation (Doc. 30). Magistrate Judge Bowman recommended that
the Court grant Defendants' Motion for Summary Judgment (Doc. 23). Plaintiff Mary
Jill Allgeyer filed objections (Docs. 31, 38) to Magistrate Judge Bowman's Report &
Recommendation, which is ripe for the Court's review.
As required by 28 U.S.C. § 636(b) and Federal Rule of Civil Procedure 72(b), the
Court has made a de novo review of the record in this case. Upon review, the Court
finds that Ms. Allgeyer's Objections (Docs. 31, 38) are not well-taken and are
accordingly OVERRULED. The Court ADOPTS the Report and Recommendation
(Doc. 30) in its entirety and GRANTS Defendants' motion for summary judgment as to
all remaining claims (Doc. 23). This action is hereby TERMINATED on the Court's
docket.

Case: l:16-cv-01128-MWM-SKB Doc #: 39 Filed: 07/01/20 Page: 2 of 2 PAG El D #: 1105

IT IS SO ORDERED.
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
By
JUDGE MATTHEW W. McFARLAND

Case: l:16-cv-01128-MWM-SKB Doc #: 26 Filed: 01/14/19 Page: 1 of 2 PAGEID #: 784
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
MARY JILL ALLGEYER

Case No. 1:16-cv-1128

Plaintiff,

Barrett, J.
Bowman, M.J.

v.

CITY OF CINCINNATI, et al.,
Defendants.

ORDER
On December 6, 2016, Plaintiff, proceeding pro se and in forma pauperis, filed a
complaint against the City of Cincinnati and two individuals, Harry Black and Georgette
Kelly. In her complaint, Plaintiff alleges that during her long employment with the City,
she has been subjected to age discrimination, and to reverse race discrimination in
violation of Title VII of the Civil Rights Act of 1964. She alleges that she has faced
termination, has been denied promotion, and has experienced unequal terms and
conditions of her employment. She alleges a course of continuing discrimination based
upon her age and race (Caucasian).
Defendants responded to Plaintiffs’ complaint with a motion seeking judgment on
the pleadings. In a Report and Recommendation later adopted over Plaintiff’s objections
as the opinion of the Court, the Court granted in part and denied in part the Defendants’
motion, which the Court construed as a motion for summary judgment. In granting the
Defendants’ construed motion, the Court dismissed all claims as time-barred except for
certain “failure to promote” claims alleging race and age discrimination based upon the
City’s failure to promote Plaintiff to positions for which Plaintiff submitted applications on
or after November 27, 2015.

(Docs. 14, 17).

The Court subsequently amended its

Case: l:16-cv-01128-MWM-SKB Doc #: 26 Filed: 01/14/19 Page: 2 of 2 PAGEID #: 785
calendar order and directed the parties to complete discovery by November 30, 2018,
with any dispositive motions to be filed on January 4, 2019.
On October 26, 2018, Plaintiff filed a motion to compel additional discovery
responses from Defendants. On November 2, 2018, Defendants filed a response to that
motion, to which Plaintiff failed to reply. In their response, Defendants persuasively argue
that Plaintiff’s motion should be denied on procedural as well as substantive grounds.
Procedurally, it is clear that Plaintiff failed to make any attempt to resolve the discovery
dispute extrajudicially prior to filing her motion, in violation of both Federal Rule of Civil
Procedure 37 and Local Rule 37.1. Pro se litigants are not excused from compliance with
all applicable rules of civil procedure and also must abide by all orders of this Court.
On November 9, 2018, Plaintiff’s deposition was taken; Defendants recently filed
the transcript of that deposition as well as a motion for summary judgment. Accordingly,
IT IS ORDERED THAT:
1.

Plaintiff’s motion to compel discovery (Doc. 21) is DENIED;

2. Plaintiff is reminded of her obligation to file any response to the Defendants’
pending motion for summary judgment on or before January 28, 2019. A
failure to respond may result in the granting of Defendants’ motion for the
reasons stated therein.
s/ Stephanie K. Bowman
Stephanie K. Bowman
United States Magistrate Judge

Case: l:16-cv-01128-MWM-SKB Doc #: 16 Filed: 03/20/18 Page: 1 of 1 PAGEID #: 389
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION

MARY JILL ALLGEYER,
Case No. 1:16-cv-01128
Plaintiff,
Barrett, J.; Bowman, M.J.
v.
CITY OF CINCINNATI, et al.,
Defendants.
ORDER
On October 5, 2017, the undersigned issued a Report and Recommendation (doc.
14), which recommended that Defendants’ Motion for Judgment on the Pleadings (doc.
12) be granted in part and denied in part. This Report and Recommendation further
recommended that discovery should continue to proceed only on the specified
failure-to-promote claims. As of the date of this Order, the Report and Recommendation
remains pending before Judge Barrett.
Based on the foregoing, the Court hereby VACATES all pretrial deadlines
currently established in the Calendar Order of March 30, 2017 (doc. 11). The parties are
hereby ORDERED to meet and jointly file an amended Rule 26(f) Joint Discovery Plan
within thirty (30) days after the Report and Recommendation is disposed of by the
assigned district judge. The Court will then conduct a scheduling conference with the
parties to establish new pretrial deadlines.
SO ORDERED.
s/Stephanie K. Bowman______
Stephanie K. Bowman
United States Magistrate Judge

Case: l:16-cv-01128-MWM-SKB Doc #: 8 Filed: 03/09/17 Page: 1 of 6 PAGEID #: 77

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
Mary Jill Allaever
Case No. 1:16-CV-01128
Plaintiffs)

v.
City of Cincinnati, et al

Judge Michael R. Barrett
JOINT DISCOVERY PLAN
(RULE 26(f) REPORT)
(REQUIRED FORM)

Defendant(s)
Now come all parties to this case, by and through their respective counsel, and
hereby jointly submit to the Court this Joint Discovery Plan, pursuant to the Court=s Trial
Procedure Order. The parties conducted their discovery conference on _2/24/17___.

A.

MAGISTRATE CONSENT
The Parties:
unanimously consent to the jurisdiction of the United States Magistrate
Judge pursuant to 28 U.S.C.' 636 (c).
X

do not unanimously consent to the jurisdiction of the United States
Magistrate Judge pursuant to 28 U.S.C.' 636 (c).
unanimously give contingent consent to the jurisdiction of the United
States Magistrate Judge pursuant to 28 U.S.C. ’ 636 (c), for trial purposes
only, in the event that the District Judge assigned is unavailable on the
date set for trial (e.g. because of other trial settings, civil or criminal).

B.

RULE 26fal DISCLOSURES
The parties have exchanged pre-discovery disclosures required by Rule
26(a)(1).
X The parties will exchange such disclosures by

3/14/17

l

\y

>

Case: l:16-cv-01128-MWM-SKB Doc #: 26 Filed: 01/14/19 Page: 1 of 2 PAGEID #: 784
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
MARY JILL ALLGEYER

Case No. 1:16-cv-1128

Plaintiff,

Barrett, J.
Bowman, M.J.

v.

CITY OF CINCINNATI, et al.,
Defendants.

ORDER
On December 6, 2016, Plaintiff, proceeding pro se and in forma pauperis, filed a
complaint against the City of Cincinnati and two individuals, Harry Black and Georgette
Kelly. In her complaint, Plaintiff alleges that during her long employment with the City,
she has been subjected to age discrimination, and to reverse race discrimination in
violation of Title VII of the Civil Rights Act of 1964.

She alleges that she has faced

termination, has been denied promotion, and has experienced unequal terms and
conditions of her employment. She alleges a course of continuing discrimination based
upon her age and race (Caucasian).
Defendants responded to Plaintiffs’ complaint with a motion seeking judgment on
the pleadings. In a Report and Recommendation later adopted over Plaintiff’s objections
as the opinion of the Court, the Court granted in part and denied in part the Defendants
motion, which the Court construed as a motion for summary judgment. In granting the
Defendants’ construed motion, the Court dismissed all claims as time-barred except for
certain “failure to promote” claims alleging race and age discrimination based upon the
City’s failure to promote Plaintiff to positions for which Plaintiff submitted applications on
or after November 27, 2015.

(Docs. 14, 17).

The Court subsequently amended its

Case: l:16-cv-01128-MWM-SKB Doc #: 26 Filed: 01/14/19 Page: 2 of 2 PAGEID #: 785
calendar order and directed the parties to complete discovery by November 30, 2018,
with any dispositive motions to be filed on January 4, 2019.
On October 26, 2018, Plaintiff filed a motion to compel additional discovery
responses from Defendants. On November 2, 2018, Defendants filed a response to that
motion, to which Plaintiff failed to reply. In their response, Defendants persuasively argue
that Plaintiffs motion should be denied on procedural as well as substantive grounds.
Procedurally, it is clear that Plaintiff failed to make any attempt to resolve the discovery
dispute extrajudicially prior to filing her motion, in violation of both Federal Rule of Civil
Procedure 37 and Local Rule 37.1. Pro se litigants are not excused from compliance with
all applicable rules of civil procedure and also must abide by all orders of this Court.
On November 9, 2018, Plaintiffs deposition was taken; Defendants recently filed
the transcript of that deposition as well as a motion for summary judgment. Accordingly,
IT IS ORDERED THAT:
1.

Plaintiffs motion to compel discovery (Doc. 21) is DENIED;

2. Plaintiff is reminded of her obligation to file any response to the Defendants’
pending motion for summary judgment on or before January 28, 2019. A
failure to respond may result in the granting of Defendants’ motion for the
reasons stated therein.
s/Stephanie K. Bowman
Stephanie K. Bowman
United States Magistrate Judge

Case: l:16-cv-01128-MWM-SKB Doc #: 36 Filed: 01/03/20 Page: 1 of 6 PAG El D #: 1040
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
RE:

Reassignment of Cases to the Docket of
District Judge Matthew W. McFarland
ORDER
The attached cases are hereby reassigned to the docket of the Honorable Matthew W.

McFarland.
mS SO ORDERED.

CHIEF

